J-S22010-20

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.

SHANTE BRUCE RICE
Appellant

No. 1111 MDA 2019

Appeal from the PCRA Order Entered June 12, 2019
In the Court of Common Pleas of Cumberland County Criminal Division at
No(s): CP-21-CR-0003481-2012
BEFORE:

OLSON, J., MURRAY, J., and COLINS, J.*

MEMORANDUM BY OLSON, J.:

FILED MAY 15, 2020

Appellant, Shante Bruce Rice, appeals from an order entered June 12,
2019, which dismissed his petition for collateral relief filed pursuant to the
Post Conviction Relief Act ("PCRA"), 42 Pa.C.S.A. §§ 9541-9546. We affirm.
The facts and procedural history of this case are as follows. On October
31, 2012, Appellant and an accomplice "broke a window and entered 1 Shiloh
Court in Mechanicsburg, Pennsylvania, wherein they took a number of items
from the residence, including jewelry, pocket knives, jars full of coins, alcohol,
and three pistols. Two of the pistols from the Shiloh Court property were sold,
but [Appellant] maintained possession of the third firearm, a Smith & Wesson
revolver." Commonwealth v. Rice, 2017 WL 1655573, at *1 (Pa. Super.
May 2, 2017) (citation omitted).

Thereafter, on November 18, 2012,

* Retired Senior Judge assigned to the Superior Court.

fA

A

J-S22010-20

Appellant and "three other accomplices conspired and attempted to rob a Hess
Express[ in Carlisle, Pennsylvania]."

Trial Court Opinion, 6/12/19, at 2.

During the course of the robbery, one of Appellant's cohorts, Tyler Mitchell
Bradshaw ("Bradshaw") fatally shot Linda Ness ("Ness"), the cashier, with the
Smith & Wesson revolver stolen from the Shiloh Court property. Id. At the
time of the aforementioned incidents, Appellant was 19-years-old.
The Commonwealth ultimately charged Appellant with various crimes
related to the incidents at Shiloh Court and Hess Express.1 On September 11,
2014, the jury convicted Appellant of second-degree murder, criminal
conspiracy to commit criminal homicide, robbery, criminal conspiracy to
copimit robbery, burglary, and criminal conspiracy to commit burglary. "On
December 16, 2014, [Appellant] received a lifetime sentence of incarceration
as a result of his conviction for [s]econd-[d]egree [c]riminal [h]omocide, with
all lesser sentences imposed running concurrently therewith." Id. at 1. No
direct appeal foliowed.
On June 1, 2015, [however,] Appellant filed a pro se [PCRA]
petitionf.]
The trial court appointed counsel, who filed an
amended PCRA petition. On December 10, 2015, the trial court
held a hearing on Appellant's amended PCRA petition. The trial
court determined that trial counsel was ineffective for failing to file
a direct appeal as directed by Appellant. Accordingly, by order
entered on December 11, 2015, the trial court reinstated
Appellant's direct appeal rights nunc pro tunc.
Rice, 2017 WL 1655573 at *3.

1 Appellant also committed two additional burglaries but these crimes are not
at issue on the present appeal. Trial Court Opinion, 6/12/19, at 2.
- 2 -

J-S22010-20

Appellant then filed a direct appeal to this Court. On May 2, 2017, a
panel of this Court vacated Appellant's conviction and sentence for the charge
of criminal conspiracy to commit criminal homicide, but otherwise affirmed
Appellant's judgment of sentence.

Id.

Our Supreme Court subsequently

denied allocatur on November 22, 2017. Commonwealth v. Rice, 174 A.3d
1025 (Pa. 2017).
Thereafter, Appellant filed a pro se PCRA petition on September 28,
2018. The PCRA court then appointed counsel, who filed an amended PCRA
petition on Appellant's behalf. In his PCRA petition, Appellant raised various
claims of trial counsel's ineffectiveness. In addition, Appellant claimed that
his sentence of life without parole violated the Eighth Amendment of the
United States' Constitution in view of the United States Supreme Court's
decision in Miller v. Alabama, 567 U.S. 460 (2012) and the Equal Protection
Clause of the Fourteenth Amendment. The PCRA court held an evidentiary
hearing on January 14, 2019 during which trial counsel, Allen C. Welch, Esq.,
testified. On June 12, 2019, the PCRA court dismissed Appellant's petition.
This timely appeal followed.2
Appellant raises the following issues on appeal:

2 Appellant filed a notice of appeal on July 10, 2019. On August 9, 2019, the
PCRA court entered an order directing Appellant to file a concise statement of
matters complained of on appeal pursuant to Pa.R.A.P. 1925(b)(1). Appellant
timely complied. The PCRA court issued an opinion pursuant to Pa.R.A.P.
1925(a) on October 8, 2019, expressly incorporating its opinion dated June
12, 2019.
- 3 -

J-S22010-20

I.

Whether the PCRA court erred in denying Appellant relief
based upon Appellant's claim that trial counsel was
ineffective for failing to object to the trial court's jury
instruction on second[-]degree murder which failed to
define "in furtherance" [for] the jury?

II.

Whether the PCRA court erred in denying Appellant relief
based upon Appellant's claim that trial counsel was
ineffective for failing to contest at sentencing the
constitutionality of Appellant's life without parole sentence
given the [United States] Supreme Court's decision in
Miifer[?]

III.

Whether the PCRA court erred in denying Appellant relief
based upon Appellant's claim that [his] sentence of life
without parole is unconstitutional and constitutes
disproportionate punishment in violation of the Eighth
Amendment of the United States Constitution pursuant to
[Miller] and Montgomery v. Louisiana, 136 S.Ct. 718
(2016)?

IV.

Whether the PCRA court erred in denying Appellant relief
based upon Appellant's claim that [his] sentence of life
without parole constitutes a violation of the Equal Protection
Clauses of the United States and
Pennsylvania
Constitutions?

Appellant's Brief at 5.
As a general matter, we "review a denial of PCRA relief to determine
whether the PCRA court's findings are supported by the record and free of
legal error." Commonwealth v. Albrecht, 994 A.2d 1091, 1093 (Pa. 2010).
"The court's scope of review is limited to the findings of the PCRA court and
the evidence on the record of the PCRA court's hearing, viewed in the light
most favorable to the prevailing party." Commonwealth v. Hammond, 953
A.2d 544, 556 (Pa. Super. 2008).

-4-

J-S22010-20

In Appellant's first two appellate issues, he argues that trial counsel
provided ineffective assistance. As this Court previously explained,
To prevail on a claim that counsel was constitutionally ineffective,
the [petitioner] must overcome the presumption of competence
by showing that: (1) his underlying claim is of arguable merit; (2)
the particular course of conduct pursued by counsel did not have
some reasonable basis designed to effectuate his interests; and
(3) but for counsel’s ineffectiveness, there is a reasonable
probability that the outcome of the challenged proceedings would
have been different. A failure to satisfy any prong of the test for
ineffectiveness will require rejection of the claim.
Id. at 556 (citations and quotations omitted).
Appellant first argues that trial counsel was ineffective for failing to
object to the trial court's jury instruction for second-degree murder.
Appellant's Brief at 11. Specifically, Appellant claims that the trial court's "jury
charge as to murder in the second degree, taken as a whole, was inadequate
as it failed to define [the term] 'in furtherance.'" Id. at 15.

Per Appellant,

"the omission of this definition amounted to a fundamental error because it
failed to define an essential element of proof required for a jury to return a
verdict of guilty." Id. Appellant's claim lacks merit.
Generally, a court’s jury instructions must be read in their entirety to
determine if they are fair and complete. The trial court has broad discretion
in phrasing the charges.

Commonwealth v. Daniels, 963 A.2d 409, 410

(Pa. 2009). Jury instructions will not be found in error if, taken as a whole,
they adequately and accurately set forth the applicable law. Id.

- 5 -

J-S22010-20

A trial court, however, "should not instruct a jury on legal principles
which

bear

no

relationship

to

the

evidence

presented

at

trial."

Commonwealth v. Arrington, 86 A.3d 831, 850 (Pa. 2014). Rather, there
"must be some relationship between the evidence presented and the law upon
which an instruction is requested." Commonwealth v. Taylor, 876 A.2d
916, 923 (Pa. 2005) (citation omitted).

"The reason for this rule is that,

'instructing the jury on legal principles that cannot rationally be applied to the
facts presented at trial may confuse them and place obstacles in the path of
a just verdict.'" Id. (citation omitted).
Herein, Appellant contends that the trial court needed to include the
following definition in its jury instructions for second-degree murder.
[The meaning of the "in furtherance" element is as follows]:
A partner's act that kills is not in furtherance of the felony if the
partner does the act for his or her own personal reasons that are
independent of the felony.
A partner's act that kills is in furtherance of the felony if he or she
does the act while fleeing from the scene and if there is no break
in the chain of events between the felony and the act. However,
even though the partner's act that kills may seem to meet these
requirements, it is not in furtherance of the felony if the partner
does the act for his or her own personal reasons that are
independent of the felony and the effort to flee.
Pa.S.S.J.I. §15.2502B. Upon review, however, the definition as set forth in
Section 15.2502B is inapplicable because, at trial, no evidence was presented
that Bradshaw killed Ness for reasons unrelated to the robbery,
contrary, the evidence demonstrated that

-6-

To the

J-S22010-20

Bradshaw brandished the weapon at [Ness to] induce her to hand
over the money, and whether or not the gun was discharged
purposefully or accidently after that (as the defense contended),
the slaying was in furtherance of the felony as the use of the gun
was a vital part of the scheme to rob the store. The evidence also
showed that [Appellant] knew that the gun was loaded and
operational, [that] he gave the gun to [Bradshaw] for the purpose
of using it in the robbery, and [that Appellant] knew that
[Bradshaw] took it into the Hess Express[.]
Trial Court Opinion, 6/12/19, at 6-7. Because no evidence was presented to
show that Bradshaw killed Ness for personal reasons, trial counsel was not
ineffective for failing to object to the trial court's jury instructions.

Thus,

Appellant's claim lacks merit.
Moreover, Appellant's ineffective assistance claim fails for the additional
reason of lack of prejudice. Indeed, Appellant's only allegation of prejudice is
that the trial court's failure to define "in furtherance" deprived the jury of an
"essential element of proof required for a jury to return a verdict of guilty."
Appellant's Brief at 15. Appellant does not even argue that the inclusion of
the requested jury instructions would have been so influential that it would
have likely changed the outcome of his trial. Consequently, Appellant's claim
fails for this additional reason.
Next, Appellant argues that trial counsel provided ineffective assistance
because he failed to challenge Appellant's sentence of life without parole as
unconstitutional in view of the United States Supreme Court's decision in
Miller. Appellant's claim lacks merit.
We note:

-7 -

J-S22010-20

In 2012, the United States Supreme Court decided Miller, supra,
which held [that] mandatory life without parole sentences for
those under the age of 18 at the time of their crimes violate[s]
the Eighth Amendment's prohibition on "cruel and unusual
punishments." Miller, 567 U.S. at 465[.] The Supreme Court
held that a juvenile homicide defendant could only be sentenced
to life without the possibility of parole if he or she is determined
to be permanently incorrigible, irreparably corrupt, or irretrievably
depraved. [Id.] at 471[.]
Commonwealth v. Lee, 206 A.3d 1, 2-3 (Pa. Super. 2019), appeal denied,
218 A.3d 851 (Pa. 2019). As explicitly stated in Miller and repeatedly held
by this Court, the ban on mandatory sentences of life without parole "applies
to only those defendants who were 'under the age of 18 at the time of
their crimes/" Commonwealth v. Furgess, 149 A.3d 90, 94 (Pa. Super.
2016) (emphasis added) (citation omitted).
Herein, it is undisputed that, at the time of the commission of the crime,
Appellant was 19-years-old. As such, "Pennsylvania law holds that [Appellant]
is not entitled to the rights established under [Miller] as he was not a juvenile
at the time of his offenses." Trial Court Opinion, 6/12/19, at 9. Accordingly,
Appellant's ineffective assistance claim fails for lack of merit.3
Finally, Appellant argues that his sentence of life without parole violates
the Equal Protection Clause of the United States' Constitution.4

Appellant

3 Due to our disposition of this claim, we need not address Appellant's third
appellate issue because it sets forth the same challenge to the constitutionality
of his sentence.
4 While Appellant stated in his question presented that his sentence violates
the Equal Protection Clause of Pennsylvania's Constitution, he advances no

-8 -

J-S22010-20

claims that Pennsylvania draws an "arbitrary distinction" by allowing those
who are "17 , years and 364 days old" to present "mitigation evidence in
support of a sentence of less than life without parole" but then, prevents
18-year-old offenders from presenting the same defense. Appellant's Brief at
25-26. Upon review, however, we conclude that Appellant waived this claim
because a freestanding constitutional challenge to the disparate treatment of
juvenile and adult offenders could have been raised on direct appeal, but was
not. See 42 Pa.C.S.A. § 9544(b) ("an issue is waived if the petitioner could
have raised it but failed to do so before trial, at trial, during unitary review,
on appeal or in a prior state post-conviction proceeding"); Commonwealth
v. Price, 876 A.2d 988, 992-993 (Pa. Super. 2005) (same), appeal denied,
897 A.2d 1184 (Pa. 2006), cert, denied, 549 U.S. 902 (2006). Based upon
the foregoing, we affirm the order of the PCRA court.
Order affirmed.
Judgment Entered.

uP
Joseph D. Seletyn, Esq*
Prothonotary

Date: 05/15/2020

such argument in his appellate brief and, as such, it is waived.
Commonwealth v. Freeman, 128 A.3d 1231, 1249 (Pa. Super. 2015)
(citation omitted) ("The failure to develop an adequate argument in an
appellate brief may result in waiver of the claim under Pa.R.A.P. 2119.").

-9-

COMMONWEALTH

IN THE COURT OF COMMON PLEAS OF
CUMBERLAND COUNTY, PENNSYLVANIA

v.
CRIMINAL DIVISION
SHANTE BRUCE RICE
CP-21 -CR-3481 -2012
OPINION PURSUANT TO PA. R.A.P. 1925
Peck, J., October 7,2019Appellant appeals1 from this Court’s June 10, 2019 Order dismissing
Appellant’s Amended Petition for Post-Conviction Relief on the matter following a
hearing we held on same on January 14, 2019.

We thereafter received and

considered the parties’ briefs on the matter. We note that our reasons for dismissal
appear of record in this Court’s June 10, 2019 Opinion which was attached to the
Order dated same. We attach the Order and Opinion hereto as “Exhibit A,” and
offer the same in support of our judgment. We respectfully request that the
Pennsylvania Superior Court affirm.

BY THE COURT,

QA*..

Chri&ylee L. Peck,

L

Courtney E. Hair LaRue, Esq.
Chief Deputy District Attorney

Appellant filed a timely Notice of Appeal on July 10,2019. On August 8, 2019, we directed
Appellant to file a Concise Statement of Errors no later than 21 days thereafter. Appellant timely
filed the same on August 29, 2019.

Jacob M. Jividen, Esq.
3327 Market Street
Camp Hill, PA 17011
Attorney for Petitioner
Shante Bruce Rice
MS-7108
SCI Dallas
1000 Follies Road
Dallas, PA 18612

2

EXHIBIT A
COMMONWEALTH

IN THE COURT OF COMMON PLEAS
CUMBERLAND COUNTY, PENNSYLVANIA

V.

CRIMINAL DIVISION

SHANTE BRUCE RICE

: CP-21-CR-3481-2012
IN RErAMENDED PETITION FOR POST CONVICTION RELIEF PURSUANT TO
THE POST CONVICTION RELIEF ACT
ORDER OF COURT
AND NOW, this 10th day of June, 2019, upon consideration of Petitioner's
Amended Petition for Post Conviction Relief, a hearing held on January 14, 2019, the
briefs filed by the parties, and for reasons stated in the accompanying Opinion of Court,
the petition is hereby DISMISSED.
Petitioner is hereby notified of his right to appeal our decision to the Superior
Court of Pennsylvania within thirty (30) days of the date of this Order.
The Clerk of Courts shall make service of this Order upon the Petitioner by
certified mail, return receipt requested.
BY THE COURT,

Christylee L. Peck, J.
Courtney E. Hair LaRue, Esq.
Chief Deputy District Attorney

o

£5

• •

c

r
["O

r.*.’

Jacob M. Jividen, Esq.
3327 Market Street
Camp Hill, PA 17011
Attorney for Petitioner
Court Administrator

-<

2
Copies mailed on.

ro
<*>

r *
n

. o

-p-

o

JUN 1 3 2019
i

JUN 1 3 2019
ss delivered on

COMMONWEALTH

IN THE COURT OF COMMON PLEAS
CUMBERLAND COUNTY, PENNSYLVANIA

v.

CRIMINAL DIVISION
SHANTE BRUCE RICE
CP-21 -CR-3481-2012
IN RE: AMENDED PETITION FOR POST CONVICTION RELIEF PURSUANT TO
THE POST CONVICTION RELIEF ACT
OPINION
Peck, J.s June 10,2019 I.

FACTS AND PROCEDURAL HISTORY
On September 11, 2014, following a jury trial, Petitioner was convicted of

Second-degree Criminal Homicide,1 Criminal Conspiracy to Second-degree Criminal
Homicide, Robbery, Burglary, Criminal Conspiracy to Robbery, and Criminal
Conspiracy to Burglary.2 On December 16, 2014, Petitioner received a lifetime sentence
of incarceration as a result of his conviction for Second-degree Criminal Homicide, with
all lesser sentences imposed running concurrently therewith.3 On January 20, 2015,
Petitioner pleaded guilty to his remaining severed charges,4 and was sentenced on
February 24, 2015 to an aggregate sentence of two to six years’ incarceration, to run
consecutively to his other sentences.5 Petitioner filed a pro se PCRA petition on June 1,
2015 and a counseled amended petition on July 30, 2015. Following a hearing on
December 10, 2015, Petitioner’s direct appeal rights were reinstated.6 Petitioner appealed
his convictions, and on May 2, 2017, in a memorandum opinion, the Superior Court
This opinion uses the terms “second-degree criminal homicide,” “second-degree murder” and “felony
murder” interchangeably.
J
l0rder °f Court, In Re: Verdict; Directed to Appear for Sentencing, September 11,2014 (Peck, J )
' 0rder of Court, In Re: Sentence, December 36,2014 (Peck, J.).
Petitioner pleaded guilty to six counts of Burglary, each a felony of the first degree. See Order of Court
In Re: Guilty Plea, January 20,2015 (Peck, J.).
10rder of Court, In Re: Sentence, February 24,2015 (Peck, J.).
Order of Court, In Re: Petition for Post Conviction Relief Pursuant to the Post Conviction Relief Act
December 10,2015 (Peck, J.). •

^

i

vacated his conviction and sentence for Criminal Conspiracy to Second-degree Criminal
Homicide but affirmed his other convictions, leaving his lifetime sentence of
incarceration unaffected.7 Petitioner’s judgment of sentence became final on November
22, 2017, following the Pennsylvania Supreme Court’s denial of his petition for
allowance of appeal.8 Petitioner filed a second pro se PCRA petition on September 28,
2018, and a counseled amended petition on December 10, 2018.
A lengthy recitation of the facts is unnecessary. In brief, Petitioner is currently
incarcerated for life based on his convictions outlined supra for felony murder, robbery,
burglary, and conspiracies to commit burglary and robbery, which crimes were
committed when the Petitioner was nineteen years old. The charges (except for burglary
and conspiracy to burglary, which occurred on a different date and are not at issue here)
arose out of an incident wherein the Petitioner and three accomplices conspired and
attempted to rob a Hess Express at gunpoint, and the cashier was fatally shot by one of
the co-defendants while Petitioner acted as a lookout. The evidence showed that the
murder weapon (1) was stolen by the Petitioner and one of the co-defendants in a
burglary on a previous date; (2) was stored by the Petitioner; (3) was test-fired by the
Petitioner and one of the co-defendants prior to the date of the attempted robbery and
murder; (4) was brought to the scene of the crime by the Petitioner; and (5) was provided
to the slayer by the Petitioner immediately before the murder occurred. Other evidence
showed that the Petitioner knew the gun was loaded at the time he provided it to the
slayer, and that it was Petitioner’s intent, along with the specific intent of the
codefendants, for the weapon to be used as an integral part of the robbery that was to take
place at the Hess Express.
Allen C. Welch, Esq., was appointed as defense counsel and served as trial
counsel to the Petitioner at all relevant times.9 Jacob M. Jividen, Esq., was later appointed
to represent the Petitioner on his first PCRA petition, and remained as Petitioner’s

7 See Commonwealth v. Rice. 2017 WL 1655573, at *1 (Pa. Super. 2017).
8 Com, v. Rice. 174 A.3d 1025 (Table) (Pa. 2017).
9 See Order of Court, In Re: Appointment of Counsel, December 11,2012 (Hess, P.J.).
2

counsel through his first PCRA proceedings, on direct appeal, and currently in the instant
PCRA proceedings.10 There have been no allegations of ineffectiveness on the part of Mr.
Jividen. In his PCRA petition, Petitioner requests relief in the form of a vacation of his
conviction and sentence for felony murder and a new trial based on ineffectiveness of
trial counsel and illegality of his sentence. Petitioner raises the following issues in his
PCRA petition:
(1)
Trial counsel was ineffective by failing to object to the
trial court’s jury instruction on second degree murder which
failed to define “in furtherance” to the jury;
(2)
Trial counsel was ineffective by failing to contest at
sentencing the constitutionality of Petitioner’s life without
parole sentence given the U.S. Supreme Court’s decision in
Miller v. Alabama. 132 S. Ct. 2455 (2012);
(3)
Petitioner’s sentence of life without parole is
unconstitutional pursuant to the Supreme Court’s decision in
Miller v. Alabama. 132 S. Ct. 2455 (2012) and Montgomery
^Louisiana, 136 S. Ct. 718 (2016) (holding that Miller v.
Alabama applies retroactively). Under Miller v. Alabama, a
court must consider an offender’s age and characteristics of
youth prior to imposing a life without parole sentence.
Although Petitioner was [nineteen] at the time of the offense,
the trial court was mandated to impose a sentence of life
without parole without considering the factors set forth in
Miller v. Alabama, thus making Petitioner’s sentence
unconstitutional. In addition, also pursuant to Miller v.
Alabama, Petitioner’s sentence of life without parole
constitutes disproportionate punishment in violation of the
Eighth Amendment of the United States Constitution because
Petitioner did not kill or intend to kill, which rendered
Petitioner of diminished culpability for purposes of imposing
a sentence of life without parole; and
(4)
Petitioner’s sentence of life without parole constitutes
a violation of the equal protection clauses of the United States
and Pennsylvania Constitutions because the Pennsylvania law
permitting mandatory imposition of disproportionate life
without parole sentences upon [nineteen] [-]year-olds does not
See Order of Court, Petition for PCRA Hearing, June 4,2015 (Peck, J.); Order of Court, In Re: Petition
for Post Conviction Relief Pursuant to the Post Conviction Relief Act, December 10, 2015 (Peck, J.);
Order of Court, In Re: Petition for Post Conviction Collateral Relief, October 25,2018 (Peck, J.).
3

have a rational basis in light of Miller v. Alahanw’s
prohibition of the same sentence upon [seventeen] [-]year-olds
possessing the same attributes of youth."
A PCRA hearing was held on January 14, 2019, after which the evidence was
closed and a briefing schedule was issued to the parties.12 Upon this Court’s receipt of the
parties briefs, and after careful review and consideration of the complete record in this
matter and the applicable law thereto, Petitioner’s petition is denied.
II.

DISCUSSION
Petitioner claims that Attorney Welch was ineffective when representing him at

trial because he failed to ask the Court for a jury instruction on second-degree murder
that included an “in furtherance” definition, and because he failed to assert at sentencing
that Petitioner’s life without parole sentence was unconstitutional under Miller v.
Alabama. We find that Attorney Welch was not ineffective on these grounds.
Petitioner also argues that his life without parole sentence is unconstitutional
under Miller v. Alabama and Montgomery v, Louisiana, as the court did not consider
mitigating factors attributable to the Petitioner’s youth at sentencing, and because the
imposition of such a sentence would be disproportionate to the Petitioner’s culpability in
the murder of the convenience store clerk as he was not the one to pull the trigger. These
arguments also fail.
a. Ineffectiveness ofCounsel
“All constitutionally-cognizable claims of ineffective assistance of counsel may be
reviewed in a PCRA Petition.” Commonwealth ex rel. Dadario v, Goldberg. 773 A.2d
126, 130 (Pa. 2001). An ineffectiveness claim may only provide relief where, "in the
circumstances of the particular case, [ineffectiveness of counsel] so undermined the truth­
determining process that no reliable adjudication of guilt or innocence could have taken
11 Petitioner’s Amended Petition for Post Conviction Relief Pursuant to the Post Conviction Relief Act
December 10, 2018, at 11(19-20.
Order of Court, In Re: Petition for Post Conviction Relief and Amended Petition for Post Conviction
Relief, January 14, 2019 (Peck, J,).
4

place.

42 Pa.C.S. §9543(a)(2)(ii). Counsel is presumed to have rendered effective

assistance. See Commonwealth v. Ali. 10 A.3d 282, 291 (Pa. 2010). Defendant must
overcome the presumption that counsel is effective by establishing all of the following
three elements by a preponderance of the evidence: (1) the underlying issue has arguable
merit; (2) counsel’s actions lacked an objectively reasonable basis; and (3) actual
prejudice resulted from counsel’s act or failure to act. See Commonwealth v. Barnett. 121
A.3d 534 (Pa. Super. 2015), citing Commonwealth v. Pierce. 527 A.2d 973, 975-76 (Pa.
1987). If Defendant’s claim fails under any necessary element of the applicable test, the
court may proceed to that element first. Commonwealth v. Fears. 86 A.3d 795 (Pa. 2014).
Petitioner first contends that counsel was ineffective for failing to object to the
jury instruction on second-degree murder which failed to define “in furtherance” to the
jury. Petitioner argues that trial counsel’s failure to object to the second degree murder
jury instruction that did not include the “in furtherance of’ definition rendered the entire
instruction inadequate as it failed to define an essential element of proof required for a
guilty verdict. As such, Petitioner argues he was prejudiced by the omission and by the
ensuing waiver of the issue on direct appeal.
At his PCRA hearing, the Petitioner admitted that he went over the jury
instructions “at length” with trial counsel before the instructions were submitted to the
jury. Although at that time he was satisfied with the instructions, Petitioner stated that he
was so because he “didn’t know nothing” and asserts that counsel’s ineffectiveness in this
regard lies because the instructions should have been “specifically explained” to him.
Attorney Welch testified that he had substantial discussions about the jury instructions
with the Petitioner at the time of trial, and that the Petitioner was very involved in the
process and asked a lot of questions. He further explained that he never asked the court to
define “in furtherance” to the jury because he didn’t think it was necessary to do so,
being that the individual word “speaks for itself,” is “a common word,” and the definition
is “pretty simple and clear.” He went on to state that he never felt the need to object to the
instruction because he was comfortable with the standard charge given to the jury.
1
5

With regard to this allegation of ineffectiveness, the following instruction appears
in brackets in the standard jury instruction for second-degree murder;
[5. I will now explain the meaning of the “in furtherance”
element:]
[A partner’s act that kills is not in furtherance of the felony if
the partner does the act for his or her own personal reasons
that are independent of the felony.]
[A partner’s act that kills is in furtherance of the felony if he
or she does the act while fleeing from the scene and if there is
no break in the chain of events between the felony and the
act. However, even though the partner’s act that kills may
seem to meet these requirements, it is not in furtherance of
the felony if the partner does the act for his or her own
personal reasons that are independent of the felony and the
effort to flee.]
[[reasons]]1*
The trial court has broad discretion in phrasing its instructions as long as the law is
clearly, adequately, and accurately presented to the jury. Commonwealth v. Keaton. 45
A.3d 1050 (Pa. 2012). Furthermore, a trial court should not instruct the jury on legal
principles that have no application to the evidence presented at trial. Commonwealth v.
Arrington. 86A.3d831 (Pa. 2014).
While the above-quoted language appears in the standard jury instructions for
second-degree murder, it is not part of the main jury instruction in that it appears in
brackets, to be read when appropriate under the facts of the individual case. Here, giving
the “in furtherance” definition in our instructions to the jury would have been
inappropriate because no defense was presented at trial that co-defendant Bradshaw’s
actions in pulling the trigger were done for his own personal reasons independent of the
robbery. Exactly the opposite is true. The evidence in this case showed that Bradshaw
brandished the weapon at the clerk in order to induce her to hand over the money, and
whether or not the gun was discharged purposefully or accidentally after that (as the
defense contended), the slaying was in furtherance of the felony as the use of the gun was
5 Exhlb,tNo*

January 14,2019, Pennsylvania Standard Jury Instructions, Pa. SSJI(Crim)
6

a vital part of the scheme to rob the store. The evidence also showed that the Petitioner
knew that the gun was loaded and operational, he gave the gun to the slayer for the
purpose of using it m the robbery, and he knew that the slayer took it into the Hess
Express; therefore, it was foreseeable by the Petitioner that the murder would occur as a
result of the robbery. A reading of the definition of “in furtherance” under these facts
would have only served to confuse the jury as to the elements of felony murder. Instead,
this Court read the “in furtherance of’ language in the context of the elements of the
offense so that the jury understood that it was necessary to consider it in order to convict
the Petitioner of second-degree murder. Here, Petitioner has not met his burden to show
that the underlying issue has any merit nor that prejudice resulted from our omission of
the optional definition of “in furtherance” from the jury instruction for second-degree
murder. We also find that trial counsel’s explanation for not requesting the supplemental
instruction was objectively reasonable, as the definition had no application to the
evidence presented. Because the instruction actually given was appropriate, trial counsel
was not ineffective for failing to object to it. We therefore conclude that Petitioner’s
argument that trial counsel was ineffective in this regard fails under each prong of the
Pierce test. See Com, v. Pierce. 527 A.2d at 975-76.
Petitioner next maintains that his mandatory life without parole sentence for
felony murder is unconstitutional under the Eighth Amendment to the United States
Constitution and that trial counsel was ineffective for failing to assert this issue at
sentencing. Petitioner cites to Miller v, Alabama, which held that mandatory life without
parole sentences for juveniles who were under eighteen years of age at the time of their
crime violate the Eighth’s Amendment’s prohibition on cruel and unusual punishment
because juveniles have diminished culpability and greater prospects for reform. Miller v.
Alabama, 132 S. Ct. 2455, 2463-64 (2012). The Miller court reasoned that mandatory life
without parole sentences for juveniles are inappropriate because they preclude
consideration of the Defendants’ chronological age, immaturity, impetuosity, and failure
to appreciate risks and consequences, as well as the family and home environment and
possibility of rehabilitation. Id. at 2468. In 2016, the Montgomery v. Louisiana case
7

further held that (1) Miller applied retroactively, and that (2) Miller established a
categorical bar to life without parole sentences for juveniles whose crimes reflect the
1 transient immaturity of youth” regardless of whether the sentence is mandatory or
discretionary. Montgomery v, Louisiana. 136 S. Ct. 718, 733-34 (2016). The
Montgomery court reasoned that the characteristics of youth, rather than chronological
age, are determinative in assessing whether life without parole is disproportionate under
the Eighth Amendment. Id. at 734.
Petitioner argues that although he was nineteen years old at the time of his crimes,
he still possessed the requisite immaturity which is the hallmark of youth, and
consequently Miller and Montgomery should operate to bar him from constitutionally
receiving a life without parole sentence, and asserts that trial counsel was ineffective for
failing to raise this issue at sentencing.
At the PCRA hearing, The Petitioner testified that he had just turned nineteen
about a month before he committed his crimes, and that he felt he did not deserve to be in
prison the rest of his life because he “didn’t hurt nobody.” He felt that a nineteen-year-old
can be less mature than an eighteen-year-old, and that Miller’s reasoning should apply to
his situation. Attorney Welch testified that he did not consider making a Miller argument
to the court regarding the Petitioner at the sentencing hearing because Miller applies to
juveniles, and the Petitioner was not a juvenile. Attorney Welch testified that he
specifically remembered feeling “stuck” because the Petitioner had to go through the
adult system, and that he and the Petitioner had many conversations to that effect
throughout the court process.
Although Petitioner gives an example of another jurisdiction that has interpreted
that the reasoning in Miller may apply to nineteen-year-olds,14 Pennsylvania has not, and
of course, the decisions of other jurisdictions are not binding upon this Court and are only
persuasive to us inasmuch as we agree. Here we are constrained to follow the line of
14 See generally People v. House, 72 N.E.3d 357 (HI. App. Ct. 2015) (holding that a nineteen-year-old
murder defendant was entitled to present mitigating evidence of his youth before he could be sentenced to
life without parole).
8

binding case law in our own jurisdiction, which mandates the conclusion that Miller does
not apply to Petitioner. In Pennsylvania, the Superior Court has held that Miller only
applies to juveniles, and that collateral relief under the PCRA for a newly-recognized
constitutional right is unavailable for Petitioners who were eighteen years old or older at
the time their crimes were committed. See Commonwealth v. Furgess. 149 A.3d 90, 9194 (2016)i Commonwealth v. Cintora. 69 A.3d 759, 764;

v. Lee. 206
A.3d 1, 4 (Pa. Super. 2019) (en banc). Attorney Welch did not seek to have mitigating
evidence presented on Petitioner’s behalf at sentencing based on his accurate
understanding of the law as it stands in Pennsylvania, whereby the Petitioner is not
entitled to the benefit of consideration of the factors outlined in Miller as he was not a
juvenile at the time he committed the offenses for which he was convicted and sentenced
to life without parole. As such, we cannot conclude that Attorney Welch’s reasons for
failing to bring these issues to the court’s attention during sentencing were objectively
unreasonable, nor was there prejudice to the Petitioner caused by the attorney’s silence on
the matter as the right to which Petitioner is seeking to avail himself does not exist in this
Commonwealth, Therefore, we conclude that trial counsel was not ineffective as the
Petitioners arguments fail under the second and third prongs of the Pierce test. See Com,
v. Pierce. 527 A.2d at 975-76.
b. Illegality ofSentence
As discussed supra, Petitioner herein argues that the attributes of youth, rather
than chronological age, should control whether his life without parole sentence is
constitutional under the Eighth Amendment pursuant to the Miller and Montgomery
decisions. Petitioner asserts that he should have the opportunity for a resentencing
hearing, wherein he can present mitigating evidence of his youth. As we have already
addressed, this argument fails as Pennsylvania law holds that Petitioner is not entitled to
the rights established under the aforementioned decisions as he was not a juvenile at the
time of his offenses.
Similarly, Petitioner argues that his life without parole sentence violates the Equal
Protection clauses of the United States’ and Pennsylvania Constitutions because
9

I

seventeen-year-olds and eighteen-year-olds are treated unequally under Pennsylvania’s
reading of Miller with no rational basis. This argument was also asserted in the Lee case,
and was subsequently affirmatively waived in light of our Superior Court’s decision in
Commonwealth v. Montgomery, which affirmed that “[neither the Supreme Court of the
United States nor our Supreme Court has held that Miller announced a new rule under the
Equal Protection Clause. Instead, Miller 'only announced a new rule with respect to the
Eighth Amendment...[thus, an] Equal Protection Clause argument is also an attempt to
extend Miller's holding.” See Commonwealth v. Montgomery. 181 A.3d 359, 366 (Pa.

I
i

Super. 20I8)(e* banc); see,also Com, v. Lee. 206 A.3d at 4, n.3, n.6. The Superior Court
in Lee also rejected the “rationale” argument asserted in Miller because the Miller case,
in which the Defendants were fourteen years old at the time of their offenses, is not
analogous to situations in which the Defendants are eighteen years old or older in order to

i

satisfy the newly-recognized constitutional right exception to the PCRA timeliness bar.
Although herein the Petitioner’s PCRA is timely, his arguments are virtually identical to
those already made and rejected by our Superior Court in the decisions discussed supra}5
Because there is no “newly recognized constitutional right” of eighteen-year-olds in
Petitioner’s situation sufficient to overcome the timeliness bar to the PCRA, it follows
that the rights Petitioner is attempting to assert herein are not sufficient to overcome his
conviction and sentence in-the first instance. We thus find that Petitioner’s final “rational
basis” argument is also an attempt to extend the holding in Miller, and thus Petitioner is
entitled to no relief on this claim.
III.

5

)
1

1

CONCLUSION

In light of the foregoing, Defendant has failed to establish that defense counsel
was ineffective, and has failed to persuade this Court that the mandatory life without
parole sentence he received as a result of his conviction for felony murder is
15 For example, see Com, v. Lee, 2016 A.3d 1,7-8 (Pa. Super. 2019) (stating “[t]here is no question the
scientific studies and principles underlying Miller infonned its holding.. .The express age limit, however,
though arguably not critical to the Miller holding, is, in our opinion, essential to an orderly and practical
application of the law...As compelling as the “rationale” argument is, we find it untenable to extend
Miller to one who is over the age of 18 at the time of his other offense...”)
10

l'

)
}

i

f
r

i.

i

4

unconstitutional as applied to him. Therefore, Defendant’s Amended Petition for Post
Conviction Relief Pursuant to the Post Conviction Relief Act is denied.

BY THE COURT,

i

Christylee L. Peck, J.
Courtney E. Hair LaRue, Esq.
Chief Deputy District Attorney
Jacob M. Jividen, Esq.
3327 Market Street
Camp Hill, PA 17011
Attorney forPetitioner

i

Court Administrator

i

!

/
i

ij

i

!
!

11

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

No. 315MAL 2020

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.

SHANTE BRUCE RICE,
Petitioner

ORDER

PER CURIAM
AND NOW, this 1st day of December, 2020, the Petition for Allowance of Appeal
is DENIED.

A True Copy Elizabeth E. Zisk
As Of 12/01/2020

Attest:__________________
Chief CferR
Supreme Court of Pennsylvania

